CERTIFICATE OF SERVICE
I hereby certify that, on this thirteenth day of October 2021, I caused a copy
of the foregoing Application for Extension of Time to be served on the following by
first-class mail, postage pre-paid at these addresses:
Court of Appeal, Second Appellate District, Division One
Ronald Reagan State Building
300 S. Spring Street
2nd Floor, North Tower
Los Angeles, CA 90013
Dean Zipser
Umberg Zipser LLP
1920 Main Street, #750
Irvine, CA 92614
949-679-0052
Benjamin Shatz
Manatt, Phelps & Phillips
2049 Century Park East
Suite 1700
Los Angeles, CA 90067
310-312-4000
Dated: October 13, 2021

Lori Sklar
2234 Sherwood Court
Minnetonka, MN 55305
Telephone: (952) 546-1051
lsklar@lorisklar.com

